Department of Homeland Security
   Ofﬁce of Inspector General


              FEMA's Implementation of Best 

            Practices in the Acquisition Process
 





OIG-09-31                                        February 2009
                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 25028




                                   February 19, 2009

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the results of the audit of the Federal Emergency Management
Agency acquisition process. We contracted with the independent public accounting firm
of Urbach Kahn & Werlin LLP (UKW) to perform the audit. The contract required that
UKW perform its audit according to generally accepted government auditing standards.
UKW identified ten areas where the acquisition process could be improved.

UKW is responsible for the attached report dated January 29, 2009, and the conclusions
expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
contractor, and have been discussed in draft with those responsible for implementation.
We trust that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

                                             January 29, 2009



Mr. Matt Jadacki
Deputy Inspector General for Office of Emergency Management Oversight
Office of Inspector General
Department of Homeland Security
245 Murray Drive, Building 410
Washington, DC 20528

Dear Mr. Jadacki:

Urbach Kahn and Werlin performed an audit of the Federal Emergency Management
Agency disaster acquisition process. The audit objective was to determine the extent to
which the agency has incorporated best practices into the disaster acquisition process.
This report presents the results of the audit and includes recommendations the agency can
implement to enhance the acquisition program’s overall success. We performed the audit
as stipulated in Task Order TPDFIGBPA070009-0070.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (571) 227-9500.

                                             Sincerely,



                                             Roger Von Elm, CPA, CGFM
                                             Partner
Table of Contents/Abbreviations 


Executive Summary .........................................................................................................................1
 


Background ......................................................................................................................................2
 


Results of Audit ...............................................................................................................................4
 

   A Strategic Approach to Acquisition Operations ......................................................................4 

   Recommendations....................................................................................................................14
 

   Management Comments and OIG Analysis ............................................................................15 


     Improved Processes and Procedures........................................................................................16 

     Recommendations....................................................................................................................23
 

     Management Comments and OIG Analysis ............................................................................24 



Appendices
     Appendix A:            Purpose, Scope, and Methodology...................................................................25 

     Appendix B:            Management Comments to the Draft Report ...................................................27 

     Appendix C:            FEMA Acquisition Management Division Organization Chart ......................29 

     Appendix D:            June 2008 OAM Scorecard..............................................................................30 

     Appendix E:            Report Distribution ..........................................................................................35 



Abbreviations
     CFO                         Chief Financial Officer 

     CIO                         Chief Information Officer 

     CO                          Contracting Officer            

     DHS                         Department of Homeland Security 

     FEMA                        Federal Emergency Management Agency 

     FY                          Fiscal Year            

     GAO                         Government Accountability Office 

     LMD                         Logistics Management Directorate 

     MD                          Management Directive              

     OAM                         Office of Acquisition Management 

     OCFO                        Office of Chief Financial Officer 

     OIG                         Office of Inspector General 

     RAMP                        Remedial Action Management Program

     UKW                         Urbach Kahn & Werlin LLP 

OIG
 

Department of Homeland Security
Office of Inspector General


Executive Summary

                  The Federal Emergency Management Agency leads the United
                  States in preparing for, preventing, responding to, and recovering
                  from disasters. The agency coordinates the federal response to
                  disasters that overwhelm the resources of state and local
                  governments. Urbach Kahn & Werlin LLP audited the Federal
                  Emergency Management Agency to determine the extent to which
                  it has incorporated best practices into the acquisition process.

                  The Office of Acquisition Management has begun to implement
                  recognized best practices. Implementation of additional best
                  practices should include:

                  �	 Developing a strategic plan that links to the agency plan or
                     outcome-based performance measures that tie
                     accomplishments to the agency’s strategic goals;

                  �	 Working with program offices to create a more strategic
                     approach to acquisition planning and management;

                  �	 Developing an oversight process to determine the efficiency
                     and effectiveness of the acquisition program; and,

                  �	 Creating systems to document and share lessons learned
                     throughout the acquisition function.

                  To help the Office of Acquisition Management become a “world­
                  class organization,” we recommend that the office prepare a
                  strategic plan and outcome-based performance measures, improve
                  the visibility of the acquisitions function, monitor performance,
                  accelerate planned acquisition process improvements, and develop
                  systems to give all acquisition staff access to lessons learned.
                  FEMA concurred with the recommendations and has begun to
                  address some of the issues identified in the report.




             FEMA’s Implementation of Best Practices in the Acquisition Process

                                         Page 1
Background
                        The Federal Emergency Management Agency (FEMA) Office of
                        Acquisition Management (OAM) provides acquisition services to
                        support FEMA’s mission.1 In fiscal years (FY) 2006 and 2007,
                        FEMA obligated $8.7 billion and $1.8 billion, respectively, to
                        contracts for goods and services. FEMA has committed to
                        modernizing the acquisition function and to developing a
                        procurement staff that operates efficiently and effectively.

                        In January 2008, FEMA issued the FEMA Strategic Plan
                        2008–2013. The plan
                        contains high-level
                        goals, themes, and                    FEMA’s Strategic Goals
                                                1.	 	 Lead an integrated approach that
                        strategies. FEMA               strengthens the Nation’s ability to address
                        intends to have                disasters, emergencies, and terrorist events;
                        program offices         2.	 	 Deliver easily accessible and coordinated
                        develop their own              assistance for all programs;
                        strategic plans in line 3.	  	 Provide  reliable information at the right
                                                       time for all users;
                        with the agency plan.   4.	 	 FEMA invest in people and people invest
                        FEMA acknowledges              in FEMA to ensure mission success; and,
                        that it must have an    5.	 	 Build public trust and confidence through
                        efficient acquisition          performance and stewardship.
                        process to achieve its  FEMA Strategic Plan 2008–2013
                        vision to become the
                        Nation’s Preeminent Emergency Management and Preparedness
                        Agency.

                        Department of Homeland
                        Security (DHS) Management                      Self-Assessment Elements
                        Directive (MD) Number 0784                �	   Organizational Leadership and
                        establishes acquisition                        Alignment
                        oversight policies and                    �	   Policies and Processes
                        procedures. It requires the               �	   Human Capital
                        Director, OAM, to perform a               �	   Knowledge and Information
                                                                       Management
                        self-assessment annually, using
                                                                  �	   Financial Accountability
                        an Acquisition Evaluation
                        Framework included in the                 DHS MD 0784
                        directive. The self-assessment

1
 In January 2009, OAM was renamed the Acquisition Management Division as part of a FEMA
Management Directorate realignment. See Appendix C for updated organization chart.



                  FEMA’s Implementation of Best Practices in the Acquisition Process

                                              Page 2
                          looks at five interrelated elements necessary to promote an
                          efficient, effective, and accountable acquisition process.

                          DHS derived its Acquisition Evaluation Framework from a U.S.
                          Government Accountability Office (GAO) tool called Framework
                          for Assessing the Acquisition Function at Federal Agencies
                          (Framework).2 The framework identifies “critical success factors”
                          that serve as best practice indicators. Implementing best practices
                          enhances the likelihood that an acquisition organization will
                          consistently achieve desired acquisition outcomes. Excerpts from
                          the GAO Framework and DHS MD 0784 are used throughout the
                          report to illustrate best practices.

                          Recent DHS OIG reports have identified problems with FEMA’s
                          acquisition process. One report found that FEMA incurred up to
                          $5.6 million in excessive costs when a contractor did not act in the
                          best interest of the government.3 This report recommended that
                          FEMA develop and implement a quality assurance program for
                          contracting staff that would ensure contractors’ compliance with
                          contract terms and conditions. Another report found that FEMA
                          needed permanent trained staff to:

                              �	 Conduct acquisition planning,

                              �	 Obtain independent cost/price analysis prior to contract
                                 award, and

                              �	 Perform contract monitoring, including the inspection and
                                 acceptance of goods and services. 4

                          A third report found that FEMA logistics systems do not track
                          disaster goods provided by all external partners.5




2
  U.S. Government Accountability Office, Framework for Assessing the Acquisition Function at Federal
 

Agencies, GAO-05-218G, September 2005. 

3
  DHS Office of Inspector General, Costs Incurred for Rejected Temporary Housing Sites, OIG-08-86, 

August 2008.

4
  DHS Office of Inspector General, Hurricane Katrina Temporary Housing Technical Assistance 

Contracts, OIG-08-88, August 2008. 

5
  DHS Office of Inspector General, Logistics Information Systems Need to Be Strengthened at the Federal 

Emergency Management Agency, OIG-08-60, May 2008. 



                    FEMA’s Implementation of Best Practices in the Acquisition Process

                                                Page 3
Results of Audit
        A Strategic Approach to Acquisition Operations

                 FEMA has organized the acquisition function to operate strategically, but
                 program offices have not properly integrated the acquisition function into
                 their decision-making activities. Effectively planning the acquisition
                 process requires attention to the larger context within which acquisitions
                 occur. Planning strategically requires that the acquisition function partner
                 with other organizational components and assist in assessing internal
                 requirements and the impact of external events. FEMA’s acquisition
                 function should work with program offices to manage the acquisition
                 process, and monitor and provide oversight to achieve desired outcomes
                 and to employ knowledge-based acquisition approaches.

                          Incorporate Acquisitions into Strategic Planning: FEMA has
                          not assigned the acquisition function the proper degree of
                          responsibility and authority for strategic planning. Both FEMA’s
                          current and prior strategic plans describe the acquisition function
                          as a support function rather than a business partner in planning,
                          managing, and overseeing the agency’s purchase of goods and
                          services. To make strategic decisions that achieve acquisition
                          outcomes more effectively
                          and efficiently, the
                                                                   Best Practice Indicator
                          acquisition function must be       Agency managers and staff view
                          assigned the appropriate           the acquisition function as a
                          degree of responsibility and       business partner rather than a
                          authority for strategic            support function.
                          planning, management, and          GAO Framework
                          oversight of the agency’s
                          purchases of goods and services.

                          FEMA’s acquisition function plays a key role in preparedness,
                          protection, response, recovery, and mitigation. To respond to
                          disaster needs following the 2005 Gulf Coast hurricanes, FEMA
                          programs purchased goods and services totaling $8.7 billion in
                          FY 2006; these acquisitions equaled almost 83% of FEMA’s
                          FY 2006 $10.5 billion budget authority and equaled FEMA’s
                          entire FY 2007 budget authority.6 Acquisition expenditures
                          dropped in FY 2007, but they were still significant at $1.9 billion.

6
  Budget authority (congressional authority to spend federal funds) taken from Homeland Security Budget
in Brief Fiscal Year 2008, available at http://www.dhs.gov/xabout/budget.


                    FEMA’s Implementation of Best Practices in the Acquisition Process

                                                Page 4
     Figure 1 illustrates the relationship between FEMA acquisitions
     and its budget authority for FY 2006 and 2007.

     Figure 1. FEMA Acquisitions/Budget Authority in Billions

           12
           10
             8
             6                                                   Acquisitions

             4                                                   Budget Authority

             2
             0
                          FY 2006 FY 2007

     Source: Urbach Kahn & Werlin, based on FEMA data


     Leading organizations see the acquisition function as a business
     partner in supporting mission needs and plan the acquisition of
     goods and services from an agency-wide perspective. Key
     elements of effective strategic planning require that acquisitions
     planning and strategy development support the agency’s mission
     rather than focus on the needs of individual units. To support
     program mission accomplishment, OAM should actively
     participate in program strategic planning activities.

     Recently, FEMA revised its strategic plan and issued strategic
     planning guidance to program offices on how to plan to
     accomplish FEMA’s goals. The strategic plan commits to move
     FEMA program offices away from a focus on their individual
     missions toward
     an integrated                      Best Practice Indicator
     goal structure       The agency has structures in place that require
     that combines        appropriate coordination among stakeholders
     program efforts      developing and implementing acquisition strategies.
     to use resources     GAO Framework
     efficiently
     toward a common strategic goal. As FEMA program offices
     develop their strategic plans, they have the opportunity to develop
     integrated acquisition strategies rather than focusing on individual
     program needs. Using this approach, program offices should
     include OAM in strategic decision making throughout the planning
     process.


FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 5
     FEMA issued Strategic Planning Guidance for FEMA
     Directorates and Offices (Working Draft, June 2008) to help
     program offices develop strategic plans that outline their strategic
     vision and direction, and to provide more detailed strategies and
     milestones that help implement FEMA’s Strategic Plan. The
     guidance suggests that program offices engage employees,
     partners, and stakeholders early in the strategic planning process,
     and coordinate with other FEMA organizations and with external
     partners and stakeholders.

     After Hurricane Katrina, OAM developed a strategy map to guide
     its internal operations and prepared a scorecard that lists significant
     initiatives and planned actions, and measures progress in
     implementing the initiatives. However, the strategy map is not tied
     to FEMA’s overall mission strategy, and the performance
     measures on the scorecard do not gauge OAM’s contribution to
     FEMA’s mission and goals.

     OAM said that the initiatives were not intended to be connected to
     the FEMA Strategic Plan or goal structure. Instead, the initiatives
     address both findings from various audits or management-initiated
     studies and improvements that OAM wants to make in leadership
     and organizational alignment, knowledge and information
     management, human capital, policies and processes, financial
     accountability, and customer satisfaction. OAM tracks progress
     and updates the scorecard periodically. The scorecard is a helpful
     tool, but it could be more effective if it were tied to FEMA’s
     mission strategy.

     Although the scorecard includes “Outcome Measures,” the
     measures are output or efficiency measures based on FEMA
     Strategic Planning
     Guidance definitions.
     In June 2008, OAM                  Performance Measures
                               Performance measures are standards used
     reported that it had      to evaluate and communicate performance
     completed action on       against expected results.
     about 40% of the
                               FEMA Strategic Planning Guidance
     initiatives. Appendix
     D contains the June
     2008 scorecard.

     FEMA’s Strategic Planning Guidance discusses three types of
     performance measures:



FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 6
          �	 Output measures refer to the internal activities of a
             program (i.e., the products and services delivered). For
             example, an OAM output measure is “# of partnering
             sessions conducted each quarter by OAM with partners.”

          �	 Outcome measures describe the intended result of carrying
             out a program or activity. They define an event or
             condition that is external to the program or activity and
             directly important to the intended beneficiaries and/or the
             general public. The OAM scorecard does not include any
             outcome measures.

          �	 Efficiency measures address return on investment, depicted
             in terms of dollars, time, or process. An OAM efficiency
             measure is “% of contracts closed after performance period
             ends.” Quickly closing contracts at their completion allows
             excess funds to be used for new purposes.

     FEMA strategic planning and analysis officials said they expect
     support offices, including OAM, to develop outcome and
     efficiency measures for their activities. Figure 2 shows examples
     of scorecard initiatives and categorizes the associated measure.


     Figure 2. Strategic Scorecard Initiatives and Measures

                                                                            Output
     Initiative                               Measure                       Efficiency
     Develop and implement Contract           % of contract actions         Output
     Review Board review process              receiving first time
                                              Contract Review Board
                                              approval
     Compare annual cost to spend to          Cost to Spend Ratio           Efficiency
     standard and develop improvement
     strategies
     Develop plan for community activities    # of FEMA/OAM developed       Output
                                              and sponsored community
                                              activities
     Solicit and act on employee              % of employees rating         Output
     feedback to improve the workplace        overall job satisfaction as
     (e.g., employee satisfaction survey)     good or better
     Source: UKW

     Without outcome-oriented performance measures, it is difficult for
     other offices or directorates and acquisitions staff to see how their
     efforts and accomplishments support FEMA’s goals. For example,
     although partnering sessions are important to improve OAM and
     program relationships, in the long term OAM should determine if

FEMA’s Implementation of Best Practices in the Acquisition Process

                             Page 7
     the partnering sessions result in more timely, comprehensive
     contracts that enable FEMA:

          �	 To deliver easily accessible and coordinated assistance
             (FEMA Goal 2), and

          �	 To build public trust and confidence through performance
             and stewardship (FEMA Goal 5).

     FEMA’s Strategic Planning Guidance should recognize that
     contribution and require program offices to strategically plan
     acquisitions and include the acquisition function in strategic
     planning activities.

     Further, OAM should
     strategically plan and         Organizational Leadership and Alignment
     link its activities to      Agency leaders need to effectively communicate
     the FEMA mission            the importance of the acquisition function to the
                                 agency’s mission and use meaningful metrics in
     and goals, and
                                 measuring the effectiveness of the acquisition
     develop performance         function.
     measures that
     evaluate and                DHS MD 0784 Guidebook

     communicate OAM’s
     contribution to FEMA’s overall disaster preparedness and response
     mission. Without clear goals and measures, OAM cannot be sure
     it is using resources to best support the FEMA mission.

     OAM Reorganized and Increased Staff: Even after reorganizing
     and increasing staff, OAM still does not have the resources or
     stature it needs to create a more strategic approach to acquisition
     planning and management. Traditionally, organizations
     fragmented the
     acquisition function
     among business units,         Organizational Leadership and Alignment
     with each unit                How  an agency organizes and manages its
                                   acquisition function affects its ability to
     responsible for its own       operate strategically.
     acquisition activities.
                                   GAO Framework
     Leading organizations
     have transformed the
     acquisition function from one focused on supporting various
     business units to one that is strategically important to the bottom
     line of the whole organization.




FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 8
     Since the 2005 Gulf Coast hurricanes, FEMA has reorganized the
     headquarters acquisition function and more than doubled
     nationwide acquisitions staff, from 98 positions in 2006 to 237
     positions allocated in 2008. In 2007, FEMA’s Office of
     Management reorganized the headquarters Chief Procurement
     Office to create OAM. OAM has three primary branches.

     The Acquisition Program and Planning Branch works with
     FEMA program offices, other federal agencies, and industry to
     reduce risk, minimize cost, and maximize the efficiency of
     response activities. The branch is studying FEMA-wide spending
     and supplier pricing practices to enable FEMA to acquire
     commodities more economically. The branch has begun working
     with program offices to:

          �	 Improve the overall quality and consistency of procurement
             packages;

          �	 Improve collaboration and communication between OAM
             and program office stakeholders and to educate and train
             program office staff;

          �	 Improve the awareness of roles and responsibilities of all
             participants in the acquisition life cycle; and

          �	 Develop strategies to support high-priority acquisitions and
             review their status to manage risk.

     The Acquisition Operations Branch houses headquarters
     contracting officers (CO) and other acquisition staff who make
     purchases for FEMA program offices. The branch recruits, hires,
     trains, and deploys contracting staff who respond to disasters.
     OAM handled 10,905 contract actions in FY 2007 and anticipated
     handling more than 11,000 during FY 2008.

     The Acquisition Policy and Legislation Branch responds to
     congressional inquiries and develops policies and procedures to
     govern acquisition activities. The branch develops strategies and
     processes to address a number of OAM’s strategic scorecard
     initiatives.

     In the past, FEMA has been criticized for not anticipating the need
     for disaster response supplies and services and not having contracts
     in place to support response activities before a disaster occurs.


FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 9
     Working with program offices, the reorganized larger OAM had
     close to 70 pre-positioned contracts and interagency agreements in
     place at the beginning of the 2008 hurricane season.

     OAM has not reached its authorized staffing level. Not
     maintaining authorized staffing levels impedes OAM’s ability to
     timely implement its planned initiatives. For additional
     information on staffing levels and other acquisitions workforce
     issues, see Challenges Facing FEMA’s Acquisition Workforce,
     OIG-09-11, November 2008.

     Partnering in Program Operations: FEMA could better position
     acquisition staff to ensure proper purchasing decisions during
     disaster response activities. Organizational alignment refers to the
     appropriate placement of the acquisition function in the
     organization, with stakeholders having clearly defined roles and
     responsibilities. The goal of organizational alignment is to ensure
     that the acquisition function enables FEMA to meet its overall
     missions and needs. To meet that goal, the acquisition function
     needs proper management support and visibility within the
     organization.

     In the past, FEMA managers viewed acquisitions as a support
     function rather than a business partner, but program offices are
     beginning to recognize the value of including acquisitions staff in
     important decisions. A proposed change in the disaster response
     decision-making framework could position acquisitions staff
     within the framework to improve collaboration and coordination
     and to add visibility regarding acquisition controls and protocols
     for mitigating fraud, waste, and abuse.

     During disaster response
     activities, decisions to buy goods               Critical Success Indicator
     and services are made by a group              Agency leaders view the
     of officials that can include                 acquisition function as a
                                                   strategic asset in support of
     representatives of federal, state,            core agency missions and
     and local governments and other               business processes.
     organizations, and is led by a
     coordinating officer; however,                GAO Framework

     OAM does not have a “seat at the 

     table.” 


     An acquisitions representative is not a part of the decision-making
     group. The acquisitions representative (a CO), reports to the


FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 10
     Finance/Administration Section and has little opportunity to
     influence decisions because of this reporting structure. To address
     this, FEMA’s Disaster Operations Directorate issued draft changes
     to the disaster response framework that included creating a high-
     level acquisition advisor position.

     The acquisition
     advisor would
                                                Acquisition Advisor
     counsel the Federal       • Counsels the Federal Coordinating Officer within
     Coordinating              the Joint Field Office on the acquisition/contracting
     Officer, thus             collaboration and coordination…and, commensurate
     increasing the            visibility regarding acquisition controls and
     visibility of             protocols for mitigating fraud, waste, and abuse.
                               • Advises the Federal Coordinating Official of the
     acquisitions and          legal and regulatory requirements regarding the
     giving acquisitions       acquisition function and uses performance metrics
     the opportunity to        to systematically review the disaster acquisition
     help the Federal          execution.
     Coordinating              FEMA Draft Standard Operating Procedure
     Officer avoid
     critical errors in acquisitions. The CO position that is part of the
     Finance/Administration Section would remain. As of July 2008,
     the proposed changes had not been implemented.

     Partners’ Inventories: Access to partner inventory information
     could help optimize FEMA’s response and recovery acquisition
     strategy. State and local governments are the first line of response
     to a disaster. When FEMA is called upon to supplement state and
     local efforts, FEMA acquires goods from other federal agencies
     and from nonfederal organizations to supplement its on-hand
     stocks. However, FEMA does not have full visibility of its
     partners’ inventories, increasing the risk that it will make unsound
     purchasing decisions based on incomplete information.




FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 11
     FEMA’s Logistics
     Management                  Before an emergency, logistics may entail:
     Directorate (LMD)               �	 Acquiring equipment
     provides logistics              �	 Stockpiling supplies
                                     � Preparing a response inventory
     support, services, and
                                 During an emergency, logistics may entail:
     operations to FEMA.             �	 Moving back-up equipment into place
     To determine                    �	 Arranging for medical support, food,
     acquisition                         and transportation
     requirements, LMD
                                 www.fema.gov
     needs to know its
     partners’ response inventories, inventory locations, and planned
     purchases. Then it can address inventory gaps by contracting with
     suppliers. FEMA refers to inventory gaps as its “bucket list.”
     Figure 3 illustrates the inventory gap.


      Figure 3. Emergency Response Inventory Sources and Gap




       Source: UKW prepared using FEMA data

     FEMA has a system that tracks its own inventories and facilitates
     the movement of property and commodities from the time they are




FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 12
                         ordered through shipping and receipt.7 FEMA’s method of
                         tracking what partners have in their inventories is manual and
                         recorded on computer spreadsheets, which are updated
                         periodically.

                         LMD officials said they want to have an improved inventory
                         tracking system within 2 years. Their vision for the automated
                         system includes tracking FEMA inventories via barcodes;
                         integrating FEMA logistics with FEMA financial and procurement
                         databases; and tracking partners’ disaster response inventories,
                         inventory locations, and planned purchases. Online access to
                         partners’ inventories would enable LMD to make more informed
                         decisions as it prepares its acquisition strategy and planning,
                         reducing FEMA’s risk of being over- or under- prepared.

                         Acquisition Evaluation: OAM is not using effective oversight
                         processes to protect the integrity and accountability of the
                         acquisition function and to ensure that it operates efficiently and
                         effectively. Organizations recognized for best practices cite
                         leadership as the most critical factor in providing direction and
                         vision and, if necessary, changing an organization’s culture.

                         Congress recognized the
                         critical role of leaders in
                                                                     Critical Success Indicator
                         providing direction and
                                                             Senior leadership and management
                         vision by requiring certain         support monitoring to assess the quality
                         civilian agencies to designate      of internal control performance and to
                         a chief acquisition officer to      ensure that issues are promptly resolved.
                         take primary responsibility         GAO Framework
                         for managing acquisitions.
                         The officer’s responsibilities include evaluating the performance of
                         acquisition programs, advising the agency head on business
                         strategies, and directing acquisition policy for the agency.

                         As part of the scorecard initiative, OAM plans to establish an
                         acquisition oversight program. An OAM manager said that the
                         oversight would emphasize compliance with:

                             �   Laws and regulations, and

                             �   Contract file maintenance requirements.

7
 The DHS OIG report Logistics Information Systems Need to Be Strengthened at the Federal Emergency
Management Agency, OIG-08-60, May 2008, discusses FEMA’s efforts to improve the information
systems supporting its disaster response logistics processes.


                   FEMA’s Implementation of Best Practices in the Acquisition Process

                                               Page 13
      OAM originally planned to establish the oversight program by
      April 30, 2008, but according to the June scorecard, the due date
      had slipped to December 30, 2008. The OAM manager
      responsible for creating the program intends to first establish an
      oversight framework and plan, and then create the oversight
      program. She did not think any reviews would take place for a
      couple of years, to allow time to train staff and give them a chance
      to become familiar with the oversight program.

      Implementing the oversight program as originally planned would
      have helped OAM determine if it was following federal,
      departmental, and FEMA acquisition rules and regulations. The
      planned program could be more useful to management if it
      includes reviews of the efficiency, effectiveness, and economy of
      the acquisitions process. Without an oversight process, OAM is
      not taking adequate steps to determine if its policies and processes
      are achieving intended outcomes or to identify instances where
      actions are needed to improve the acquisition process.

Recommendations

      We recommend that the Administrator, Federal Emergency
      Management Agency:

      Recommendation # 1: Emphasize the important role of the
      acquisition function in strategic planning. Specifically, the
      Administrator should require program offices to coordinate with
      the Office of Acquisition Management and other stakeholders early
      and throughout the strategic planning process to develop efficient,
      effective, and economical acquisition strategies.

      We recommend that the Director, Office of Acquisition
      Management, Federal Emergency Management Agency:

      Recommendation #2: Develop an Office of Acquisition
      Management strategic plan and performance measures that link
      acquisition activities to FEMA’s goals, identify short- and long-
      term priorities, and develop multi-year work plans to address
      priorities. The Director should also redirect staff or request
      increases to staffing levels to address priority initiatives and
      integrate acquisitions into program office activities.




 FEMA’s Implementation of Best Practices in the Acquisition Process

                             Page 14
      We recommend that the Administrator, Federal Emergency
      Management Agency:

      Recommendation #3: Finalize the draft Joint Field Office
      Standard Operating Procedures to include the Acquisitions Advisor
      reporting to the Federal Coordinating Officer and participating
      with other top leaders of the Joint Field Office command structure
      in responding to disaster situations.

      We recommend that the Director, Office of Acquisition
      Management, Federal Emergency Management Agency:

      Recommendation #4: Work with the Logistics Management
      Directorate to develop an automated system to capture data on
      partner response inventories and to develop an acquisition strategy
      to deal with inventory gaps.

      Recommendation #5: Accelerate development and
      implementation of the acquisition oversight program. The
      oversight program should be comprehensive and should include
      acquisition economy, efficiency, and effectiveness as well as
      compliance with laws and regulations and contract file
      maintenance. The Office of Acquisition Management should
      coordinate with the Office of Inspector General as it plans the
      reviews.

Management Comments and OIG Analysis

      FEMA concurred with the recommendations and said that it would
      provide a detailed corrective action plan in its 90-day response.
      With regard to recommendation #5, FEMA said that it has drafted
      an acquisition oversight program policy directive; it is developing
      a business case to add a Contracting Administration and Quality
      Control Branch to the Management Directorate’s Acquisition
      Management Division; and, it has developed audit guidelines and
      checklists and identified activities to audit in FY 2009. We
      consider FEMA’s current and planned actions responsive to the
      recommendations.




 FEMA’s Implementation of Best Practices in the Acquisition Process

                             Page 15
Improved Processes and Procedures

     Policies and processes embody the basic principles that govern the way an
     agency performs the acquisition function. Ideally, policies and processes
     clearly define the roles and responsibilities of agency staff, empower
     people across the agency to work together effectively to procure desired
     goods and services, and establish expectations for stakeholders to
     strategically plan acquisitions and proactively manage the acquisition
     process. This approach requires engagement by all relevant stakeholders,
     including program offices, financial managers, human capital officials,
     and other appropriate officials.

     Leading organizations develop effective knowledge management systems
     to document and share best practices to improve performance and to
     transfer lessons learned. Leading organizations have found that more
     cooperative business relationships with suppliers have improved their
     ability to respond to changing business conditions. They establish
     commodity managers for key goods and services. These commodity
     managers are involved in defining requirements with internal customers,
     negotiating with providers of goods and services, and assisting in
     resolving issues after the contract is awarded.

            Sharing Best Practices: One of the methods leading
            organizations employ to improve operations is identifying and
            sharing lessons learned and best practices among stakeholders.
            OAM needs a systematic approach to identify and share lessons
            learned and best practices identified during external and internal
            reviews. Without some sharing mechanism, acquisition staff
            cannot readily take advantage of efficiencies gained through
            program improvements, and OAM risks missing opportunities to
            improve the acquisition function.

            FEMA has systems that could be used more effectively to support
            acquisition process improvements. In July 2003, FEMA launched
            the Remedial Action Management Program (RAMP) to identify
            and remedy operational and programmatic issues encountered in
            disaster response and recovery operations and exercises and to
            capture lessons learned and smart practices that would become part
            of a Web-based national library accessible to all levels of
            government. OAM said that the RAMP process is ineffective and
            more like a “complaints forum,” and that it does not usually use
            the RAMP process to document best practices or technical issues
            that arise during disaster response activities.



       FEMA’s Implementation of Best Practices in the Acquisition Process

                                   Page 16
     After a disaster, FEMA
     program offices assess their            Hot Washes Identify:
     response performance during a       � Operational efficiencies
     process known as a “hot wash.”          and effectiveness
     “Hot wash” results should be        � Contracting effectiveness
     posted to the RAMP library.         OAM Branch Chief
     But FEMA officials said that
     the process was informal and they do not document all issues and
     problems, nor do they vet all issues and problems with appropriate
     FEMA officials and managers to determine an appropriate course
     of action. Further, the RAMP library does not capture the results
     of all “hot washes.”

     OAM offers acquisition staff access to Virtual Acquisition
     Office™ (VAO), an acquisition knowledge management
     subscription service. VAO provides online access to information
     on the contracting process, quality checklists, samples, and a
     reference library. It includes links to current FEMA acquisition
     policies and procedures.

     OAM does not have a process to communicate acquisitions best
     practices used in one region throughout FEMA. For example, one
     regional CO compared the cost of purchasing office supplies with
     purchase cards to the cost using local vendor blanket purchase
     agreements at a field
     office. The comparison
     showed that using blanket               Best Practice Indicator
                                   Lessons learned are identified and shared
     purchase agreements was       among stakeholders.
     more efficient and
     economical. The region        GAO Framework
     changed its purchasing
     process consistent with the results, but the results were not shared
     throughout FEMA. If other regions had performed the analysis,
     they might have identified opportunities for similar efficiencies
     and economies.

     OAM cannot rely on the RAMP library for a complete list of
     lessons learned and best practices identified during disaster
     response and recovery operations. It does not have a process for
     collecting and sharing individual lessons learned. To improve the
     acquisition program, OAM should begin sharing best practices. It
     may be able to do so by posting them to VAO.




FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 17
     Teamwork and Communications: OAM needs to improve
     communications and coordination with program offices. Leading
     organizations have found that an acquisition function that
     successfully supports agency missions employs a multidisciplinary
     approach. This approach requires engagement by all stakeholders
     to identify needs, assess alternatives, develop cost-effective
     acquisition approaches, and help ensure financial accountability.

     OAM is working to ensure that acquisitions staff communicates
     effectively with program offices by:

          �	 Having contracting officials attend program office staff
             meetings so that they can work with the offices on
             acquisition issues;

          �	 Using portfolio managers to guide the acquisition process;
             and

          �	 Training program officials on developing complete
             acquisition packages and on the acquisition life cycle.

     OAM and stakeholders
     are not always
     successful in working                 Best Practice Indicator
     together to identify        Stakeholders work on an ongoing basis to
                                 define key business and acquisition drivers
     needs, assess               and to understand each other’s needs.
     alternatives, and
                                 GAO Framework
     coordinate as an
     acquisition action
     moves through the process. Program officials said that they did
     not understand why it took so long to get an acquisition action
     through the process to an award.

     For example, a program official met with OAM in August 2007 to
     discuss a trailer maintenance and deactivation contract. Because of
     confusion between the program office and the OAM contracting
     specialist, and because OAM changed contracting specialists twice
     during the acquisition process, the contract had still not been
     awarded in July 2008, 11 months later.

     COs were challenged in working with program offices, as well.
     COs said that program offices had unrealistic expectations of the
     timing for contract award and service delivery and that program
     officials did not understand the acquisition process. COs at all


FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 18
                           levels said that incomplete acquisition packages continue to be the
                           number one cause of a breakdown in the acquisition process.

                           OAM and program officials must work together to develop a
                           common understanding of each other’s challenges and needs to
                           execute their roles and responsibilities effectively.

                           Strategic Sourcing: OAM has begun strategic sourcing activities,
                           but it needs to accelerate its efforts to take advantage of likely
                           acquisition economies and efficiencies. Leading organizations
                           establish commodity managers to manage key supplies and
                           services that have high dollar value or significant impact on agency
                           mission. Commodity managers should be involved in defining
                           requirements with internal clients, negotiating with potential
                           providers of goods and services, and assisting in resolving
                           performance or other issues after the contract is awarded. Such
                           relationships have led to lower costs, higher quality, and shorter
                           product design and delivery times.

                           In May 2005, the Office
                           of Management and                   Best Practice Indicator
                           Budget issued a             The  agency has established commodity
                                                       managers for key goods and services.
                           memorandum to federal
                           Chief Acquisition           GAO Framework
                           Officers, Chief
                           Financial Officers (CFO), and Chief Information Officers (CIO)
                           directing them to develop and implement agency strategic sourcing
                           efforts. The office defined strategic sourcing as the collaborative
                           and structured process of critically analyzing an organization’s
                           spending and using this information to make business decisions
                           about acquiring commodities and services more effectively and
                           efficiently.

                           In September 2007, FEMA initiated its program for strategically
                           managing the sourcing function. FEMA designed the strategic
                           sourcing program to become “a better steward of its resources by
                           systematically developing, documenting and applying sustainable
                           strategies to deliver measurable best value to FEMA.”8 The
                           strategic sourcing program includes goals and a timeline. The
                           timeline called for the program to be operational by September
                           2008. OAM is making progress in implementing its plan, but
                           much remains to be accomplished.

8
    Excerpt from FEMA Strategic Sourcing Program, Concept of Operations.


                      FEMA’s Implementation of Best Practices in the Acquisition Process

                                                  Page 19
                          FEMA has begun two strategic sourcing initiatives. Under one
                          initiative, OAM worked with the FEMA CIO on a spend analysis
                          of wireless telecom acquisition data, which resulted in potential
                          cost savings of $2.2 million in FY 2007. Under the second
                          initiative, OAM secured CIO executive sponsorship for an
                          integrated product team/commodity council for information
                          technology operation and maintenance requirements.9 OAM
                          developed a detailed project plan and had begun a spend analysis.
                          The information technology contract has a value of approximately
                          $800 million over 5 years. OAM estimates that FEMA can save
                          from $9 million to $28 million per year through this initiative.

                          FEMA does not have individual contracts in place to ensure that it
                          receives the best value for purchases such as office supplies,
                          commodities, and services. However, OAM has assigned
                          commodity managers to gain industry knowledge, which should
                          result in more favorable negotiation outcomes with suppliers.
                          OAM also plans to create additional commodity councils. OAM
                          intends to address other areas, including creating an Information
                          Technology Depot and developing more strategic sourcing contract
                          initiatives for food, water, shelter, transportation, and medicine.

                          OAM officials said that some of the main challenges they need to
                          overcome to achieve their goals are:

                              �	 Establishing more effective supplier relationships and
                                 employing more rigorous supplier selection to create a
                                 strong supplier base;

                              �	 Establishing commodity managers to manage key goods
                                 and services more effectively;

                              �	 Establishing and maintaining effective communication and
                                 feedback systems with suppliers;

                              �	 Developing strong performance metrics to better gauge
                                 performance;



9
  The IT Core Commodity Council, consisting of DHS Heads of Contracting Activities, CIOs, CFOs, and
senior Component representatives, is chartered to develop and implement a DHS-wide strategy to acquire
information technology (IT) hardware/software and services effectively and efficiently to meet DHS
mission needs. A key emerging acquisition strategy, endorsed by the Office of Procurement Operations
and the DHS CIO, is to acquire IT goods and services via DHS contracts EAGLE and FirstSource.


                    FEMA’s Implementation of Best Practices in the Acquisition Process

                                                Page 20
          �	 Overcoming current resource constraints for generating
             good data analysis and reporting; and

          �	 Maintaining current, complete, and accurate contract
             information on enterprise-wide agreements.

     FEMA needs to increase resource commitments to take advantage
     of strategic sourcing opportunities. Through strategic sourcing,
     FEMA could acquire supplies and services more efficiently and
     effectively.

     Planning for Continuing Resolutions: Ineffective planning and
     guidance delayed acquisition requests during the FY 2008
     continuing resolution. In FY 2008, OAM wanted to shift major
     acquisitions from year-end, spreading them throughout the fiscal
     year, and to have all planned acquisitions awarded before hurricane
     season. Officials expected program offices to initiate about 11,000
     acquisition requests, but as of mid-February 2008, 5 months into
     the fiscal year, OAM had received only 2,600 (24%) of the
     requests
     projected. OAM
                                        Best Practice Indicator
     officials              There is awareness of current and pending
     attributed the         legislation and its potential implication on the
     lower-than­            agency’s acquisition policies, processes, and
     anticipated            practices.
     number of              GAO Framework
     requests to two
     factors:

          �	 FEMA operated under a continuing resolution from
             October 1 through December 26, 2007, when the President
             signed the Consolidated Appropriations Act of 2008 (PL
             110-161) authorizing funding for DHS, including FEMA,
             for FY 2008.

          �	 Although program
             offices could have                  OCFO FY 2008 Continuing 

                                                    Resolution Guidance 

             prepared and                     • No contracts in anticipation of
             submitted acquisition            funding increases
             requests, they                   • Renewals, but at the same scope
             hesitated to prepare             of work as FY 07
             the requests during              • No new contract actions
             the continuing                   FEMA OCFO




FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 21
              resolution because they were concerned that funding was
              not assured.

     Timely guidance and direction are important to ensuring that
     contracts are in place to provide services and supplies in time to
     support disaster response activities. OAM and the Office of the
     Chief Financial Officer (OCFO) said that early acquisition
     planning was the subject of many staff meetings early in the fiscal
     year. However, OCFO direction focused on contracting
     limitations, and OAM did not issue official direction and guidance
     on when acquisition packages were due until March 10, 2008.

     In addition, the Acting CFO said that historically FEMA has been
     slow to submit acquisition requests during a continuing resolution.
     Given FEMA’s history, OCFO and OAM should have given
     program managers direction on ways to accelerate acquisition
     requests during or at the end of the continuing resolution.

     System Integration: FEMA has acknowledged for some time that
     the IT systems supporting the acquisition function are not fully
     integrated with financial systems, do not produce good reports to
     assist management in overseeing the acquisition process, and
     contain unreliable data. When buying goods and services, leading
     organizations have implemented comprehensive systems that
     integrate contracting, financial, and other data to support
     management decision making and external reporting requirements.

     FEMA realizes
     that the current                Integrated Contracting Systems
     acquisition            �	 Track events throughout the life of a contract
                            �	 Monitor contractor performance and work progress
     systems do not         �	 Record and validate the receipt of goods and
     provide all the           services
     information            �	 Link to human capital systems
     stakeholders need      GAO Framework
     and do not include
     tools to plan or monitor transactions. FEMA had planned to
     implement a new system to support the acquisition process, but the
     implementation was placed on hold in October 2008 pending a
     DHS-wide technology competition. Since then, FEMA updated its
     current contracting system.

     Officials said that the new system would have improved the
     acquisition system interface with FEMA’s integrated financial
     management information system and would have improved


FEMA’s Implementation of Best Practices in the Acquisition Process

                            Page 22
      management reporting processes. But the system would not
      interface with important logistics systems, including: the logistics
      information system, which tracks personal property such as
      computers, cell phones, and generators; and the total asset
      visibility system, which contains a group of systems that support
      logistics activities such as property and supply movements from
      ordering through shipping. FEMA’s new system should interface
      with other federal, state, and local government and private sector
      inventory systems.

Recommendations

      We recommend that the Director, Office of Acquisition
      Management, Federal Emergency Management Agency:

      Recommendation #6: Implement a knowledge-based
      management system to document lessons learned and implement
      best practices for acquisitions. The system should be readily
      available and promoted as a library of best practices.

      Recommendation #7: Expand the use of portfolio managers to
      foster strong communication between contracting officials and
      program offices, and continue to expand on the Office of
      Acquisition Management’s participation in program office staff
      meetings to improve communications and understanding of the
      acquisition function.

      Recommendation #8: Devote the resources necessary to
      implement a more robust strategic sourcing program.

      Recommendation #9: Provide program offices early and clear
      guidance on the development of acquisition plans and requirements
      for submission of acquisition packages that includes how to
      address issues associated with processing requests during a
      continuing resolution.

      We recommend that the Administrator, Federal Emergency
      Management Agency:

      Recommendation #10: Begin work to integrate acquisition,
      logistics inventory, and financial systems as soon as possible.




 FEMA’s Implementation of Best Practices in the Acquisition Process

                             Page 23
Management Comments and OIG Analysis

      FEMA concurred with the recommendations and said that it would
      provide a detailed corrective action plan in its 90-day response.
      We consider FEMA’s planned actions responsive to the
      recommendations.




 FEMA’s Implementation of Best Practices in the Acquisition Process

                             Page 24
APPENDIX A
Purpose, Scope, and Methodology

                           DHS OIG contracted with Urbach, Kahn, and Werlin LLP to audit
                           FEMA’s acquisition process. The overall purpose was to
                           determine the extent to which FEMA had adopted a system of
                           internal controls and information systems that embrace best
                           acquisition practices during “normal” and “emergency” situations.
                           Specifically, the purpose was to determine:

                              �	 Has FEMA implemented best practices and improved 

                                 systems in its acquisition operations? 

                              �	 What are the strengths and weaknesses of FEMA’s
                                 acquisition process in both normal and emergency situations?
                              �	 Are FEMA’s information systems designed and operating to
                                 facilitate operations and to support the acquisition process?

                           We performed the audit according to the July 2007 revision of the
                           Government Auditing Standards. We concentrated on the period
                           from FY 2006 through July 2008.

                           For guidance on best practices for the acquisition process, we
                           relied extensively on the GAO Framework for Assessing the
                           Acquisition Function at Federal Agencies10, and DHS
                           Management Directive 0784, Acquisition Oversight Program11.
                           We interviewed representatives of the U.S. Army National Guard
                           and the U.S. Agency for International Development about how
                           their acquisition function supports their disaster response activities.
                           Also, we reviewed documents, such as media articles and press
                           releases obtained through Internet searches, to gather background
                           information on best practices used by other acquisition
                           organizations.

                           To establish criteria for this review, we researched U.S. laws and
                           regulations; DHS directives; FEMA policies and guidance; and
                           Office of Federal Procurement Policy requirements and guidelines
                           applicable to acquisition activities. We reviewed assessments of
                           the FEMA acquisition process prepared by FEMA contractors,
                           prior reports, and congressional testimony by FEMA, DHS OIG,
                           and GAO to identify their findings and recommendations related to
                           FEMA’s acquisition process.

                           We performed work at FEMA headquarters in Washington, DC; at
                           the Joint Field Office in Brentwood, TN; at regional offices in
10
     GAO Framework for Assessing the Acquisition Function at Federal Agencies, September 2005.
11
     DHS Management Directive 0784, December 19, 2005.


                      FEMA’s Implementation of Best Practices in the Acquisition Process

                                                  Page 25
APPENDIX A
Purpose, Scope, and Methodology

                    Atlanta, GA, and Boston, MA; and at the Transitional Recovery
                    Offices in New Orleans and Baton Rouge, LA. We selected the
                    offices based on disaster acquisition activity or reputation. We
                    held discussions with FEMA officials throughout the audit and
                    discussed initial audit results with FEMA officials on
                    November 5, 2008.




               FEMA’s Implementation of Best Practices in the Acquisition Process

                                           Page 26
APPENDIX B
Management Comments to the Draft Report




              FEMA’s Implementation of Best Practices in the Acquisition Process

                                          Page 27
APPENDIX B
Management Comments to the Draft Report




              FEMA’s Implementation of Best Practices in the Acquisition Process

                                          Page 28
APPENDIX C
FEMA Acquisition Management Division Organization Chart




Source: FEMA




               FEMA’s Implementation of Best Practices in the Acquisition Process

                                           Page 29
APPENDIX D
June 2008 OAM Scorecard


       Outcome               Measure           2009 Target          Initiative         Initiative      Initiative    Initiative
                                                                                        Status           Lead        Due Date
Customer Perspective
Trusted,                                                      � Conduct customer       New           Chief, APP     9/15 release
Committed, High­   % of customers satisfied                     satisfaction survey                                 of survey12
Value Partners     or completely satisfied
                                                  100%
                   with the office’s overall                  �   Establish service-   New           Chief, APP
World-Class
                   performance                                    level agreements                                  10/31/08
Service Provider
                                                                  with customers
Financial Accountability Perspective
                                                              � Compare annual         Complete/     Chief, APL     October 31
                                                                cost to spend to       Ongoing                      each year
                                                                standard and           (quarterly)                  (month
                                                                develop                                             after Fiscal
                                                                improvement                                         Year
Good Stewards of
                      Cost to Spend Ratio          1.9          strategies as needed                                closes)
Funds
                                                                                                                    The average
                                                                                                                    ratio for
                                                                                                                    FY 2007
                                                                                                                    was 1.48.
                                                              � Develop and            New           Chief, APL     06/30/08
                                                                execute standard
                      % of contracts closed                     closeout strategy
                      after POP ends within
                                                   85%        � Develop and            New           Chief, APL     12/30/2008
                      specified timeframe                       implement contract
                      based on contract type                    closeout
                                                                improvements
                                                                including goals
Optimized Funds                                               � Identify and           New           Chief, APL     09/30/08
Management                                                      implement
                                                                strategies for
                      Prompt payment                            reducing interest
                      percentage Goal (Based                    penalties
                                                   98%
                      on OMB’s Government-                    � Implement              New           Chief, APL     9/30/08
                      wide Goal)                                consistent invoice
                                                                processing
                                                                procedures with
                                                                Finance
                                                              � Educate program        Complete/     Bus Spec,      01/31/08
                                                                offices on             ongoing       APP
                                                                developing realistic
                                                                IGCEs
                                                              � Complete the           Complete      Chief, AO      09/19/07
                                                                business case for
                      % of contracts awarded                    implementation of a
Best Value            within plus 10% or           80%          reverse auction tool
                      minus 20% of IGCE                         and implement
                                                                follow-up strategy
                                                              � Expand use of          Complete      Chief, AO      10/31/07
                                                                reverse auctioning
                                                                for simple
                                                                commodities across
                                                                FEMA

12
     After this initial survey in September 2007, OAM will attempt to solicit feedback from each customer once per year.


                               FEMA’s Implementation of Best Practices in the Acquisition Process

                                                             Page 30
APPENDIX D
June 2008 OAM Scorecard

    Outcome                  Measure             2009 Target          Initiative          Initiative     Initiative    Initiative
                                                                                           Status          Lead        Due Date
Policies & Processes Perspective
                                                                � Develop and             Complete/    Chief, APL     06/09/08
                                                                  implement CRB           Ongoing
Responsive and       % of contract actions
                                                                  review process
Efficient            receiving first-time            90%
Operations           CRB approval                               � Establish best          Complete     Chief, APL     06/09/08
                                                                  practices for CRB
                                                                  process
                                                                � Educate customers       Ongoing      Chief, APL     05/30/08
                                                                  on acquisition
                     % decrease in number
                                                                  process
                     of J&As for urgent &            20%
                     compelling                                 � Issue advance           New          Chief, AO      2/28/09
                                                                  notification of
                                                                  expiring contracts
                                                                � Develop acquisition     Complete/    Chief, APL     03/31/08
Proactive Planning                                                strategies aligned to   Ongoing
                                                                  budget
                     % of planned
                     requirements awarded           100%        � Create an               Complete/    Chief, APP     01/31/08
                     before hurricane season                      acquisition lifecycle   Ongoing      Program
                                                                  tracker database for                 Analyst, APP
                                                                  hurricane
                                                                  requirements
                                                 Fed            � Develop partnering      Complete     Chief, APL     03/15/08
                                                 Partners: 3      CONOPS plan and
                     # of partnering sessions
Collaborative                                    Industry         validate with
                     conducted each quarter
Relationships                                    Liaison: 2       partners
                     by OAM with partners
                                                 Customer
                                                 Ops: 12
                                                                � Incorporate change      Complete/    Chief, AO      8/1/08
                                                                  to the ICS that         Ongoing
                     % of actions that reflect                    brings acquisition
                     good business decision                       to the forefront
                                                     80%
                     making during a
                     disaster response                          � Conduct acquisition     Ongoing      Chief, APL     12/30/08
                                                                  oversight program
                                                                � Establish and track     Complete/    Procurement    01/31/08
                                                                  socioeconomic           ongoing      Analyst
Operational                                        100% of        goals
Excellence           % of actions that meet
                                                  individual
                     socioeconomic goals
                                                    goals       � Train customers on      Complete     Procurement    05/30/08
                                                                  the use of FIDO         for FY       Analyst
                                                                                          2008
                                                                � Provide training on     Complete     Chief, APL     3/31/08
                                                                  PBSA
                     % of PBSA contracts
                     with implemented                95%
                     QASPS                                      � Compile data from       New          Chief, AO      2/28/09
                                                                  FPDS-NG and
                                                                  PRISM




                               FEMA’s Implementation of Best Practices in the Acquisition Process

                                                               Page 31
APPENDIX D
June 2008 OAM Scorecard


    Outcome               Measure              2009 Target           Initiative       Initiative     Initiative       Initiative
                                                                                       Status          Lead           Due Date
Human Capital Perspective
                                                             � Implement internal     New          Chief, AO       9/30/08
                                                               OAM rotation
                    Voluntary turnover                         program
                                               15% or less
                    rate                                     � Regularly assess       New          Chief, AO       08/30/08 (1st
                                                               root causes of                                      time)
                                                               turnover
                                                             � Communicate            Complete     Program         02/15/08
                                                               opportunities for                   Analyst
                                                               rewards and
Employer of
                                                               incentives
Choice for the
Acquisition                                                  � Develop and            Complete/    Chief, APL /    01/15/08
Professional                                                   implement new          Ongoing      Acq Bus Spec
                    % of employees rating                      employee
                    overall job satisfaction     100%          orientation system
                    as good or better                        � Solicit and act on     Ongoing      Chief, APL /    8/30/08
                                                               employee feedback                   Competitive
                                                               to improve the                      Sourcing Mgr/
                                                               workplace (e.g.,                    Admin Spec
                                                               employee
                                                               satisfaction
                                                               survey)
                                                             � Clarify staff           New         Chief, APL      07/30/08
                                                               certification
                                                               requirements by
                                                               position
                                                             � Assess workforce         New        Chief, APL /    07/30/08
                    % of workforce that                        certification gaps                  Bus Spec,
Dedicated, Agile,                                              and implement                       APP
                    meets or exceeds
and                                                            fulfillment strategy
                    certification and            100%
Knowledgeable                                                � Align certification      New        Chief, APL /    07/30/08
                    required training for
Workforce                                                      requirements with                   Bus Spec,
                    their position
                                                               recruitment and                     APP
                                                               promotion
                                                               activities
                                                             � Conduct training         Ongoing    Chief, APL      8/30/07 –
                                                               workshops                                           ongoing




                              FEMA’s Implementation of Best Practices in the Acquisition Process

                                                             Page 32
APPENDIX D
June 2008 OAM Scorecard

    Outcome              Measure               2009 Target          Initiative          Initiative    Initiative        Initiative
                                                                                         Status         Lead            Due Date
Human Capital Perspective
                  % of employees who                            � Develop and              New         Chief, APL       12/30/08
                  are cross-functionally             5%           implement cross-
                  trained each year                               training program
                                                                � Develop and
                                                                  implement FEMA           New/        Section Chief,   7/15/08 for
                    % of DHS Interns                              program of               ongoing     AO               first group
Dynamic and         arriving at FEMA who                          participation in                                      of interns
Sustainable         are assigned to Sections        100%          DHS Acquisition
Organization        & have trained mentors                        intern program
                    and supervisors                               (including training
                                                                  of mentors &
                                                                  supervisors)
                    % of employees who                          � Incorporate IDP          New         Chief, AO        08/30/08
                    meet their annual IDP           100%          requirements into
                    goals                                         performance plans
                    # of FEMA/OAM                               � Develop plan for         Ongoing     Competitive      06/30/08
                    developed and                                 community                            Sourcing Mgr
                                                  1 per year
                    sponsored community                           activities
                    activities
Compelling
                                                                � Develop and              Complete    Program          4/30/08
Culture             % of outstanding
                                                                  implement                            Analyst
                    employee contributions
                                                    100%          informal employee
                    that are
                                                                  recognition
                    recognized/awarded
                                                                  program
Knowledge & Information Management Perspective
Effective End-to- % of contracts                                � Implement PRISM          New         Chief, AO        2/28/09
End Knowledge &   accessible through
Information       contract writing
                                            100%
Management        system
Enterprise

                                                                � Design, develop          Ongoing     Contract         8/29/08
                                                                  and implement                        Specialist, AO
                                                                  contract file
                                                                  management
                    % of contract files                           system in electronic
                                                    80%
                    centrally managed                             and paper format




                             FEMA’s Implementation of Best Practices in the Acquisition Process

                                                               Page 33
APPENDIX D
June 2008 OAM Scorecard


      Outcome           Measure          2009 Target        Initiative         Initiative          Initiative         Initiative
                                                                                Status               Lead             Due Date
Knowledge & Information Management Perspective
Model Leaders                                                � Conduct quarterly all-   Ongoing      Director,        10/24/0713
Promoting                                                      hands meetings                        OAM
Leadership at All
Levels            % of employees who                         � Conduct weekly staff     Ongoing      Branch           Weekly
                  clearly understand the                       meetings                              Chiefs/
                                           100%
                  OAM mission and                                                                    Section Chiefs
                  objectives
                                                             � Have employees           New          Executive        As deemed
                                                               attend FEMA senior                    Officer          appropriate
                                                               leadership meetings
                       % of staff who want                   � Develop internal         Complete     Contract         4/30/08
                       mentoring and are                       OAM mentoring                         Specialist, AO
                       being mentored by          100%         program
                       leaders in our
                       organization




Abbreviations:
AO             Acquisition Operations Branch
APL            Acquisition Policy & Legislation Branch
APP            Acquisition Program & Planning Branch
Acq Bus Spec   Acquisition Business Specialist
CRB            Contract Review Board
FIDO           Federal Interagency Database Online
FPDS-NG        Federal Procurement Data System-Next Generation
OMB            Office of Management and Budget
IDP            Individual Development Plan
IGCE           Independent Government Cost Estimate
J&As           Justification and Approvals
Mgr/Admin Spec Manager/Administrative Specialist
PBSA           Performance Based Service Agreement
POP            Period of Performance
QASPS          Quality Assurance Surveillance Plans




13
     Future all-hands meetings will be held the last month of each quarter.


                                FEMA’s Implementation of Best Practices in the Acquisition Process

                                                            Page 34
APPENDIX E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Acting Administrator, Federal Emergency Management Agency
                      FEMA Audit Liaison (Job Code DC7A02)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                       FEMA’s Implementation of Best Practices in the Acquisition Process

                                                   Page 35
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
